U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Juan Marquis Holiday v. United States of America
S.Ct. No. 21-5326
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 2,
2021, and placed on the docket on August 9, 2021. The government’s response is due on
September 8, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5326
HOLIDAY, JUAN MARQUIS
USA

DOUGLAS COLTON BROWN
225 BROADWAY
SUITE 2100
SAN DIEGO, CA 92101

